SEC.gov |  Fort Worth District Office
Search SEC Documents
Company Filings | More Search Options
Skip to Main Content
About
What We Do
Commissioners
Securities Laws
SEC Docket
Reports
Careers
Contact
Divisions
Corporation Finance
Enforcement
Investment Management
Economic and Risk Analysis
Trading and Markets
National Exam Program
All Divisions and Offices
Enforcement
Litigation Releases
Administrative Proceedings
Opinions and Adjudicatory Orders
Accounting and Auditing
Trading Suspensions
How Investigations Work
Administrative Law Judges
Regulation
Proposed Rules
Final Rules
Interim Final Temporary Rules
Other Orders and Notices
Self-Regulatory Organizations
Staff Interpretations
Education
Investor.gov
Check Out a Broker or Adviser
Investor Alerts and Bulletins
Fast Answers
File a Tip or Complaint
Publications
Filings
EDGAR Search Tools
Company Filings Search
How to Search EDGAR
Requesting Public Documents
Descriptions of Filing Types
Information for Filers
About EDGAR
News
Press Releases
Public Statements
Speeches
Testimony
Spotlight Topics
What's New
News Digest
Events
Webcasts
Special Studies
Fort Worth District Office
Inspector General
About OIG Office of Audits Office of Investigations Semiannual Reports Testimony Other Publications References Links Relevant FOIA Documents Contact Us
This document is an HTML formatted version of a printed document. The printed
document may contain agency comments, charts, photographs, appendices,
footnotes and page numbers which may not be reproduced in this electronic
version. If you require a printed version of this document contact the
United States Securities and Exchange Commission, Office of Inspector General,
Mail Stop 11-7, 450 Fifth Street N.W., Washington, D.C. 20549 or call (202)
942-4460.
FORT WORTH DISTRICT OFFICE
Audit Report No. 279March 30, 1998
Limited Audit
of Financial and Administrative Controls
INTRODUCTION
The Office of Inspector General conducted a limited audit of the financial
and administrative internal controls of the Ft Worth District Office (FDO).
The audit procedures were limited to analyzing representations made by
the FDO staff, reviewing supporting documentation, and conducting some
test of transactions. The purpose of the audit was to provide the Commission
with negative assurance that the internal controls were adequate, being
implemented economically and efficiently, and in compliance with Commission
policies and procedures.1
BACKGROUND
The Ft Worth District Office has approximately sixty staff, and provides
support in carrying out Commission programs to the Central Regional Office
( located in Denver, Colorado). In carrying out its responsibilities, FWDO
exercises a broad range of financial and administrative functions, including
maintaining time and attendance records; procuring supplies and services;
arranging for staff travel; maintaining an inventory of property; and recording
budgeted and actual expenditures of the office.
AUDIT RESULTS
During the limited audit described above, no material weaknesses in
the internal control structure involving FWDO's financial and administrative
functions came to our attention. Some minor internal control weaknesses
were verbally provided to the FWDO management. FWDO generally concurred
with these findings and recommendations and agreed to implement them.
The audit was performed in accordance with generally accepted government
auditing standards from February to March 1998.
Endnote
1 Negative assurance means that no material internal control weaknesses came to our attention during our limited audit.
Site Map
Accessibility
Contracts
Privacy
Inspector General
Agency Financial Report
Budget & Performance
Careers
Contact
FOIA
No FEAR Act & EEO Data
Whistleblower Protection
Open Government
Plain Writing
Links
Investor.gov
USA.gov
U.S. Securities and Exchange Commission
ABOUT
DIVISIONS
ENFORCEMENT
REGULATION
EDUCATION
FILINGS
NEWSROOM
Inspector General
About OIG
Office of Audits
Office of Investigations
Semiannual Reports
Testimony
Other Publications
References Links
Relevant FOIA Documents
Contact Us